App. 1
APPENDIX A
THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FIFTH DISTRICT
NOT FINAL UNTIL TIME
EXPIRES TO FILE MOTION
FOR REHEARING AND
DISPOSITION THEREOF
IF FILED
MICHAEL TYLER
BAGGOTT,
Appellant,
Case No. 5D20-1035

v.
STATE OF FLORIDA,
Appellee.

/

Decision filed August 11, 2020
3.850 Appeal from the Circuit
Court for St. Johns County,
Howard M. Maltz, Judge.
William Mallory Kent and Ryan
Edward McFarland, of Kent &
McFarland, Jacksonville, for Appellant.
Ashley Moody, Attorney General,
Tallahassee, and Kristen L. Davenport,
Assistant Attorney General, Daytona
Beach, for Appellee.

App. 2
PER CURIAM.
AFFIRMED.
ORFINGER, WALLIS and EISNAUGLE, JJ., concur.

App. 3
APPENDIX B
IN THE CIRCUIT COURT,
SEVENTH JUDICIAL
CIRCUIT, IN AND FOR
ST. JOHNS COUNTY,
FLORIDA
CASE NO.: CF13-455
DIVISION: 56
STATE OF FLORIDA,
vs.
MICHAEL TYLER
BAGGOTT,
Defendant.

/

ORDER DENYING MOTION FOR
POST-CONVICTION RELIEF
(Filed Apr. 6, 2020)
THIS CAUSE came before the Court on Defendant’s Motion for Post-Conviction Relief filed pursuant
to Fla. R. Crim. P. 3.850 on February 6, 2018. The Court
has considered the motion, the State’s response
thereto, as well as Defendant’s reply. Being fully advised in the premises finds as follows:
On October 17, 2014, Defendant entered a plea of
no contest to Traveling to Meet a Minor after use of a
Computer to Solicit a Child (Count I), Use of a Computer to Seduce, Solicit, or Lure a Child (Count II), and
Unlawful Use of a Two Way Communication Device

App. 4
(Count III). On January 7, 2015, Defendant was sentenced to 38 months in prison on Counts I, II, and III
followed by 84 months probation on Count I. The sentences were ordered to run concurrent with one another. Defendant was required to register as a sexual
offender pursuant to § 943.0435, Fla. Stat. Defendant’s
judgment and sentence were affirmed on appeal by a
mandate issued February 23, 2016. On February 29,
2016, Defendant filed a Motion to Correct Illegal Sentence in which he argued his convictions violated double jeopardy. The State agreed that Defendant’s
convictions on Counts II and III be vacated. Accordingly, on May 13, 2016, the Court vacated Defendant’s
convictions on Counts II and III and resentenced Defendant on Count I to 21 months in prison followed by
84 months of probation. On June 13, 2016, Defendant
filed a pro se Motion for Modification or Reduction of
Sentence that was denied on June 15, 2016. On February 6, 2018, Defendant filed the instant Motion for
Post-Conviction Relief. On January 8, 2019, the State
was ordered to respond to Defendant’s motion and the
response was filed on June 26, 2019. On November 24,
2019, the Court entered an Order granting Defendant
leave to amend ground four of his Motion for Post-Conviction Relief. On January 23, 2019, Defendant filed a
response to this Court’s Order in which he declined the
opportunity to amend ground four. Accordingly, the
Court will treat ground four of Defendant’s motion on
the merits as filed.
To warrant an evidentiary hearing on an ineffective assistance of counsel claim, the defendant must

App. 5
allege facts sufficient to establish a prima facie case
under the test established in Strickland v. Washington,
466 U.S. 668 (1984). Defendant must first identify particular acts or omissions by counsel that are shown to
be outside the broad range of reasonable assistance
under prevailing professional standards. Id. at 687.
The second prong of the Strickland test requires a defendant to show prejudice as a result of counsel’s deficient performance; however, the second prong of
Strickland is modified in cases in which a defendant
pleads guilty to the charges. Strickland, 466 U.S. at
687; State v. Dickey, 928 So.2d 1193 (Fla. 2006). In order to satisfy the prejudice requirement of Strickland
in plea cases, “the defendant must show that there is a
reasonable probability that, but for counsel’s errors, he
would not have pleaded guilty and would have insisted
on going to trial.” Dickey, 928 So.2d at 1193, 1197
(quoting Hill v. Lockhart, 474 U.S. 52, 59, 106 S.Ct. 366,
88 L.Ed.2d 203 (1985)). A claim of ineffective assistance of counsel is sufficient to warrant an evidentiary
hearing only where the defendant alleges specific facts,
not conclusively rebutted by the record, that demonstrate deficient performance by defense counsel and resulting prejudice. Mendyk v. State, 592 So. 2d 1076,
1079 (Fla. 1992); Turner v. State, 570 So.2d 1114, 111415 (Fla. 5th DCA 1990). “When a defendant fails to
make a showing as to one prong, it is not necessary to
delve into whether he has made a showing as to the
other prong.” Zakrzewski v. State, 866 So.2d 688, 692
(Fla. 2004) (quoting Waterhouse v. State, 792 So.2d
1176, 1182 (Fla. 2001)).

App. 6
Ground One
In ground one of the instant motion, Defendant asserts his counsel was ineffective for misadvising him
regarding the possibility of an entrapment defense at
trial and the potential for an entrapment jury instruction. Defendant asserts prejudice in that had he been
properly advised, he would not have entered a plea.
Specifically, Defendant alleges his counsel advised him
that “getting the court to give a jury instruction on entrapment would be near impossible and therefore Baggott should enter a plea.” Defendant argues he was
entrapped in a manner consistent with § 777.201(1),
Fla. Stat., and asserts his counsel was aware of the
critical nature of the defense of entrapment.
On March 10, 2014, defense counsel filed a Motion
to Dismiss based on subjective entrapment, as well as
a Motion to Dismiss based on objective entrapment.
Motions to Dismiss, attached hereto as Appendix A.
The State filed a traverse in opposition to both motions.
At the April 16, 2014 hearing, defense counsel presented lengthy argument as to why Defendant was entrapped both subjectively and objectively. Transcript of
Proceeding, April 16, 2014, pp. 10-16, 22-35, attached
hereto as Appendix B. On October 16, 2014, the Court
entered orders denying Defendant’s Motion to Dismiss
based on subjective entrapment and Motion to Dismiss
based on objective entrapment.
To warrant the giving of an entrapment jury instruction, the defense must show some evidence which
suggests the possibility of entrapment. Morgan v.

App. 7
State, 112 So. 3d 122, 124 (Fla. 5th DCA 2013). In Morgan, the defendant responded to an advertisement for
a casual encounter with an adult female. Id. at 125.
The Court held that the trial court’s failure to give a
jury instruction on entrapment was error, observing
that when the law enforcement officer interjected the
prospect of including a minor, the defendant in Morgan
expressed reservations and was equivocal in his responses. Id. Accordingly, the Court concluded there
was at least some evidence with which the defense
could suggest the defendant in Morgan was entrapped.
Id.
Here, as part of an undercover operation meant to
locate and identify persons using the Internet to sexually exploit children, law enforcement published an
advertisement on the Plenty of Fish website using the
handle “Twihardfan.” The posting indicated the poster
was looking for some “fun” for her “much younger” sister. Defendant responded to the post indicating he
would like to “help” her little sister. App. B, p. 19.
The undercover officer provided Defendant with a
phone number which Defendant texted. Id. The conversation then switched to text messaging and it was established that Defendant was communicating with the
poster’s younger sister “Natalie.” Id.; Interview of Michael Baggott, pp. 16-28, attached hereto as Appendix
C.1 “Natalie” informed Defendant she was 13 years old

1

The transcript of Defendant’s interview with Detective
Marmo was entered into evidence at the September 19, 2014
hearing on Defendant’s Motion to Suppress. Evidence Details,

App. 8
and asked if that was okay, to which Defendant replied,
“Yea, if anyone asks, we can say I’m 17. Can I see a
picture.” App. B, pp. 19-21; App. C, p. 28; Arrest Report,
attached hereto as Appendix E. Defendant then proceeded to ask “Natalie” if she would have sex with him.
App. B, pp. 19-21; App. C, p. 28; App. E. Here, unlike
the defendant in Morgan, Defendant expressed no reservations about the prospect of sex with a 13-year-old.
Although Defendant argued at the Motion to Dismiss
hearing that the photograph of “Natalie” depicted a female between the ages of 17 and 19, the Court observes
that Defendant learned that Natalie was 13 prior to
asking for the photo. App. B, pp. 19-21; App. E. Prior to
receiving the photograph, Defendant already expressed that Natalie’s age did not concern him. The
Court finds that the record does not contain any evidence suggesting the possibility of entrapment and a
jury instruction would not have been warranted.
Moreover, assuming arguendo that counsel was
deficient, Defendant cannot establish prejudice.
A defendant who has pleaded guilty who
claims that defense counsel was ineffective for
failing to advise of an available defense establishes Strickland’s prejudice prong by demonstrating a reasonable probability that, but for
counsel’s errors, the defendant would not have
pleaded guilty and would have insisted on
going to trial. Counsel’s effectiveness is determined according to the totality of the
State of Florida v. Michael Tyler Baggott, 13000455CFMA, attached hereto as Appendix D.

App. 9
circumstances. Strickland, 466 U.S. at 690,
104 S.Ct. 2052. Therefore, in determining
whether a reasonable probability exists that
the defendant would have insisted on going to
trial, a court should consider the totality of
the circumstances surrounding the plea, including such factors as whether a particular
defense was likely to succeed at trial, the colloquy between the defendant and the trial
court at the time of the plea, and the difference between the sentence imposed under the
plea and the maximum possible sentence the
defendant faced at a trial.
Grosvenor v. State, 874 So. 2d 1176, 1181-82 (Fla.
2004).
Regarding whether an entrapment defense was
likely to succeed at trial, in Senger v. State, the Fifth
District Court of Appeal reiterated the analysis a court
should conduct when evaluating whether a Defendant
has been subjectively entrapped:
The analysis for subjective entrapment involves a three-step inquiry. First, “whether an
agent of the government induced the accused
to commit the offense charged”; second,
“whether the accused was predisposed to commit the offense charged”; and third, “whether
the entrapment evaluation should be submitted to a jury.”
200 So. 3d 137,143–44 (Fla. 5th DCA 2016).
Regarding objective entrapment, the Fifth District
Court of Appeal reiterated the applicable analysis:

App. 10
The defense of objective entrapment is evaluated under the due process provision of article
I, section 9, of the Florida Constitution. (internal citations omitted). The “ ‘[o]bjective entrapment analysis focuses on the conduct of
law enforcement’ and ‘operates as a bar to
prosecution in those instances where the government’s conduct so offends decency or a
sense of justice that it amounts to a denial of
due process.’ ” (internal citations omitted)
Id. at 143.
The Court in Senger went on to find that, “[h]ere,
law enforcement did not specifically target Senger. Rather, it simply presented an opportunity and waited
until Senger contacted them. This activity is not prohibited.” Id. Florida courts have routinely upheld the
utilization of adult websites as a forum for initiating
conversations geared toward finding individuals willing to commit solicitation and traveling offenses. In
Cantrell v. State, the First District Court of Appeal reasoned:
The Appellant contends that the officer’s
fraudulent misrepresentation about her age
constituted subjective entrapment as a matter
of law, because participation in the Craigslist
site requires a person to acknowledge, by
checking a box, that he or she is 18 or over,
and thus the exchange was lawful when he
entered into it and law enforcement improperly induced him into interacting with a purported minor. We disagree. Inducement to
engage in unlawful conduct is not shown by

App. 11
evidence that law enforcement made a fraudulent representation; there must be evidence
that the fraudulent representation created “a
substantial risk that an otherwise law-abiding citizen would commit an offense.” Farley v.
State, 848 So.2d 393, 395 (Fla. 4th DCA 2003)
(quoting, United States v. Davis, 36 F.3d 1424,
1430 (9th Cir.1994)). A mere invitation under
false pretenses is not synonymous with inducement. As the First Circuit Court of Appeal stated in United States v. Gifford, 17 F.3d
462, 468 (1st Cir.1994), “[i]nducement can be
found only when the government has ventured beyond a simple offer, say, by pleading
with a defendant.” In our case, after the officer
stated the purported minor’s age, the appellant participated enthusiastically in their exchange, suggested that they meet as soon as
possible, and did not show any hesitation.
132 So. 3d 931, 932 (Fla. 1st DCA 2014), quashed on
other grounds, 2016 WL 1669260 (Fla. 2016); SantiagoMorales v. State, 212 So. 3d 509, 510 (Fla. 1st DCA
2017).
Here, as previously discussed, Defendant believed
he was communicating with a 13-year-old girl named
“Natalie.” When asked if the fact that “Natalie” was 13
was okay with him, Defendant responded “yes” and immediately asked her for photos. Then, Defendant asked
“Natalie” if she would have sex with him. “Natalie” responded she would if it did not hurt and Defendant told
her he would “take it easy.”

App. 12
Under the established case law, the police conduct described in the instant motion constituted neither subjective nor objective entrapment, and an entrapment
defense was unlikely to succeed at trial. Additionally,
Defendant argued on direct appeal that the trial court
erred when it found that Defendant was not subjectively entrapped and erred in denying his motion to
dismiss on the basis of objective entrapment. Initial
Brief on the Merits, attached hereto as Appendix F. Defendant’s judgment and sentence were affirmed on appeal.
Even if Defendant proceeded to trial on Count I
only, Defendant would have faced 15 years in prison.
The Court can find no reason the State would not have
been able to establish all necessary elements of
Traveling to Meet a Minor if the case had proceeded to
trial. The Court denied the portion of Defendant’s Motion to Suppress seeking to exclude inculpatory statements Defendant made to police after page 12 of the
interview transcript. Order on Defendant’s Motion to
Suppress, attached hereto as Appendix G. In the admissible portion of the interview, Defendant admitted
that he traveled 2 1/2 hours from Savannah to have sex
with a girl named “Natalie” who had informed Defendant she was 13 years old. App. C, at pp. 15-25. Defendant admitted that he purchased condoms at a nearby
Walgreens which he intended to use. Id. at pp. 22-23.
Although Defendant argues in his motion that he did
not truly believe “Natalie” was 13, nowhere in his interview with Detective Marmo does he indicate he believed “Natalie” was being untruthful about her age.

App. 13
App. C. In fact, during Defendant’s interview with Detective Marmo, the following exchange occurred:
Detective Marmo: Okay. So it’s safe to say, if
there was really a 13 year old here, you probably would have – and she was willing to do
this, you would have done it, right?
Defendant: Honestly, no. Because on the
drive up, it was really sketchy. I was like, this
isn’t right. I shouldn’t be doing this and I was
going to come tell her.
Detective Marmo: Right. But your original
intention was –
Defendant: My original intention, yes, it was.
Id. at pp. 23-24.
At one point in the interview, Detective Marmo
confronted Defendant with the text message in which
“Natalie” informed Defendant she was 13 years old and
asked if that was okay, to which Defendant responded
“Yes.” Defendant admitted, “I messed up. I said sexual
things. I wanted – I asked for sexual things and I’m a
terrible person.” Id. at p. 28. At no time does Defendant
say he actually believed “Natalie” was older than she
claimed to be, although Defendant had multiple opportunities to do so:
Detective Marmo: What’s bad? You know
what’s bad, is that you would have came over
here and there would have been a 13 year old
here, like you were hoping- Defendant: Yes, sir.

App. 14
Detective Marmo: – and you –
Defendant: That was horrible, it was. That
was the dumbest (Indiscernible) –
Id. at p. 29.
Accordingly, the Court finds the likelihood of an
entrapment defense succeeding at trial was virtually
nonexistent.
Regarding the colloquy between the defendant
and the trial court at the time of the plea, the Court
conducted a thorough plea colloquy at which Defendant was fully apprised of his rights. Transcript of Proceedings, October 17, 2014, attached hereto as Appendix
H.
Considering the totality of the circumstances surrounding Defendant’s plea, including whether a particular defense was likely to succeed at trial, the colloquy
between the defendant and the trial court at the time
of the plea, and the difference between the sentence
imposed under the plea and the maximum possible
sentence the defendant faced at a trial, the Court finds
there is not a reasonable probability that Defendant
would have proceeded to trial but for counsel’s alleged
errors. Accordingly, Defendant cannot establish prejudice pursuant to Grosvenor. For the reasons discussed
above, Defendant can establish neither deficient performance nor prejudice, and ground one will be summarily denied.

App. 15
Ground Two
In ground two, Defendant asserts his counsel was
ineffective for advising Defendant to plead no contest
to Counts I, II, and III of the Amended Information
when double jeopardy prohibited punishment on all
counts together. Defendant contends that had counsel
advised him that Counts II and III were subject to dismissal based on double jeopardy, he would not have
pled no contest and would have insisted on proceeding
to trial. Defendant asserts his parents asked his counsel to file a motion to dismiss on the basis of double
jeopardy and sent case law to his counsel which supported the double jeopardy challenge. Defendant
claims his counsel declined to file a motion to dismiss
because doing so was ill-advised since “we don’t know
how these cases are being decided in the 5th DCA.” Defendant asserts that while his appeal was pending, the
Fifth District Court of Appeal decided Holt v. State2
and Holubek v. State3, holding that convictions arising
out of the same criminal episode for traveling to meet
a minor under section 874.0135(4)(a), Fla. Stat. and
unlawful use of a two-way communications device under section 934.215, Fla. Stat. violate double jeopardy.
Defendant alleges he agreed to enter a plea prior to his
knowledge that two of the three counts were subject to
a double jeopardy challenge, in part because he was
advised by his counsel, and he himself believed, that
having three counts would “sound bad to a jury.” Defendant argues that had his counsel filed a motion to
2
3

173 So. 3d 1079 (Fla. 5th DCA 2015).
173 So. 3d 1114 (Fla. 5th DCA 2015).

App. 16
dismiss based on double jeopardy, two of the counts
would have been removed, and Defendant would have
proceeded to trial. Defendant argues he did not proceed
to trial partly due to his counsel’s advice and partly because he believed “having three counts would sound
bad to a jury” but would have proceeded to trial with
only one count.
In its response to ground two, the State argues
that a defendant who enters into a negotiated plea bargain waives double jeopardy claims.
The cases relied upon by Defendant for the proposition that double jeopardy prohibited punishment on
all three counts were decided after Defendant entered
his plea. See Walton v. State, 847 So. 2d 438, 445 (Fla.
2003) (trial counsel cannot be held ineffective for failing to anticipate changes in the law). At the time
Defendant entered his plea, Pinder v. State, 128 So. 3d
141 (Fla. 5th DCA 2013) was the controlling decisional
law. In Pinder, the Court recognized that “[s]ection
847.0135(3) expressly provides that qe]ach separate
use of a computer online service, interne service, local
bulletin board service, or any other device capable of
electronic data storage or transmission wherein an offense described in this section is committed may be
charged as a separate offense.’ Id. at 144 (quoting Fla.
Stat. § 847.0135(3)). Similarly, dismissal would not
have been warranted under more recent decisional law
from other district courts of appeal. See Hartley v.
State, 129 So. 3d 486, 490 (Fla. 4th DCA 2014) (“the
legislature has authorized separate punishments for
violations of section 847.0135(3) where there were

App. 17
separations of time between each of the crimes
charged.”). Comparably, in Shelley v. State, the Second
District Court of Appeal held that the defendant’s “convictions for both soliciting and traveling as charged in
this case violate the prohibition against double jeopardy . . . ” (emphasis added). 134 So. 3d 1138, 1142 (Fla.
2d DCA 2014). The Court in Shelley based its holding
on the fact that the State only charged one use of computer devices to solicit, and that charge was based on
a solicitation occurring on the same date as the traveling offense. Id. at 1141. The Court in Shelley acknowledged that convictions for both soliciting and traveling
may be legally imposed in cases in which the State has
charged and proven separate uses of a computer devices to solicit. Id.
Under the decisional law existing at the time of
Defendant’s plea, a motion to dismiss based on double
jeopardy would not have been granted. Defendant’s
Information charged the conduct as occurring on distinct dates and the evidence would have supported
that finding.4 Second Amended Information, attached
4

At the time of Defendant’s plea and sentencing, when determining whether multiple convictions were based on the same
conduct, the reviewing court was permitted to consider the entire
evidentiary record. Hughes v. State, 201 So. 3d. 1230 (Fla. 5th
DCA 2016) (Court of Appeal clearly consulted the entire record,
not just the Information, in determining whether that defendant’s
Solicitation and Traveling after Solicitation charges were based
upon the same conduct for purposes of double jeopardy). At the
time Defendant entered his plea, courts were permitted to review
the entire record to determine whether Solicitation and Traveling
were based on the same conduct, and the main focus appeared to
be whether the charging document charged different dates for the

App. 18
hereto as Appendix J; App. B; App. E. Defendant communicated with the undercover law enforcement officer via internet and via phone several times starting
on March 13, 2013 and ending on March 17, 2013. App.
B., pp. 61-62; App. C; App. E. Further, Defendant’s own
motion acknowledges that he was aware of the case
law prior to entry of his plea. Additionally, Defendant
has not identified any defense to Count I other than
entrapment. As discussed in ground one, an entrapment defense would have been unsuccessful at trial.
Accordingly, Defendant would have still faced 15 years
in prison if he proceeded to trial. The Court finds there
is not a reasonable probability that Defendant would
have proceeded to trial but for counsel’s alleged errors
and Defendant cannot establish prejudice pursuant to
Grosvenor. For these reasons, Defendant cannot establish deficient performance or prejudice and ground two
will be summarily denied.
Ground Three
In ground three, Defendant asserts his counsel
was ineffective for failing to move to withdraw his no
contest plea following the trial court’s order granting
his Motion to Correct Illegal Sentence which vacated
the convictions for Counts II and III. Defendant argues
that he did not enter his plea knowingly and intelligently because he entered a plea to three counts which
two offenses. See e.g., Stapler v. State, 190 So.3d 162, 164 (Fla.
5th DCA 2016); Mizner v. State, 154 So. 3d 391, 400 (Fla. 2d DCA
2014).

App. 19
together violated double jeopardy. Defendant contends
that had counsel moved to withdraw his plea, the
Court likely would have granted the motion and Defendant would have proceeded to trial on the one remaining count.
Defense counsel had no reason to believe Defendant would be permitted to withdraw his plea at a resentencing hearing stemming from a motion filed
pursuant to Fla. R. Crim. P. 3.800. A motion under rule
3.800 is not the proper avenue to seek withdrawal of a
plea as Rule 3.800 addresses the correction of sentences, not the voluntariness or validity of pleas. See
e.g., Lowery v. State, 105 So. 3d 554, 555 (Fla. 1st DCA
2012). Assuming arguendo that the Court allowed Defendant to withdraw his plea and Defendant had proceeded to trial, he would have been facing 15 years in
prison. As previously discussed, the facts underlying
Defendant’s arrest did not constitute entrapment and
Defendant has failed to identify any viable defense to
Count I. The Court finds Defendant cannot establish a
reasonable probability he would have proceeded to
trial on Count I and risked facing 15 years in prison
when the Court had just resentenced him to 21 months
in prison, which meant that Defendant was released
from prison shortly after resentencing. For these reasons, ground three will be summarily denied.
Ground Four
In ground four, Defendant argues counsel was ineffective for failing to attempt plea negotiations with

App. 20
the State following the trial court’s order granting his
Motion to Correct Illegal Sentence which vacated the
convictions for Counts II and III. Defendant contends
his father emailed his counsel on April 5, 2016, to ask
if there were any plans to negotiate with the State Attorney, such as the possibility of lowering the remaining charge to Attempted Child Abuse, as Defendant
claims had been done in other similar cases in Florida.
Defendant asserts his counsel responded [n]o, I wasn’t
even sure which attorney was handling the case.” Defendant contends he had “given explicit instruction to
his counsel to resume plea negotiations.” Defendant asserts prejudice in that as a result of counsel’s allegedly
deficient performance, he received a substantially similar sentence at resentencing despite two of the three
counts being vacated.5
As addressed in ground three, Defendant’s counsel
had no reason to believe Defendant would be permitted
to withdraw his plea at a resentencing hearing stemming from a motion pursuant to Fla. R. Crim. P. 3.800.
Regardless, the United States Supreme Court has definitively held that there is no constitutional right to a
5

On November 24, 2019, this Court entered an Order Granting Leave to Amend Motion for Post-Conviction Relief giving Defendant an opportunity to allege facts as to ground four
supporting the allegation in his reply that the State would have
been willing to negotiate a plea in order to ensure the Court would
not give Defendant a non-prison sentence. On January 23, 2020,
Defendant filed a response to this Court’ Order Granting Leave to
Amend asserting he is not required to assert that the State would
have been willing to negotiate a lesser sentence in order to be entitled to an evidentiary hearing.

App. 21
plea bargain. Noble v. State, 787 So. 2d 808, 809 (Fla.
2001) (citing Weatherford v. Bursey, 429 U.S. 545
(1977). Consequently, Defendant’s claim that counsel
was ineffective for failing to negotiate a plea deal is
without merit. See Otano v. United States, 2019 WL
279888, at *9 (M.D. Fla. 2019) (a defendant does not
have a constitutional right to a plea bargain and defendant’s claim that his counsel was ineffective for failing to negotiate a plea bargain was without merit);
Abuchar v. United States, 2014 WL 5810688, at *8 (S.D.
Fla. 2014) (“failure to pursue a plea bargain is not
enough to prove the deficient performance aspect of ineffective assistance of counsel.”). In his response to this
Court’s order granting leave to amend, Defendant cites
to the Sixth Circuit cases of Rodriquez-Penton v.
United States and Byrd v. Skipper in support of his contention that his counsel’s alleged failure to attempt to
negotiate a plea deal prior to resentencing constituted
ineffective assistance of counsel and required an evidentiary hearing. In Rodriquez-Penton, defense counsel failed to advise the defendant that pleading guilty
may result in adverse immigration consequences.
Rodriguez-Penton v. United States, 905 F.3d 481, 484
(6th Cir. 2018). In this context, the Court held a defendant can show prejudice by demonstrating that had
counsel advised the defendant he would be deported if
he accepted the plea offer, the defendant would have
bargained for a plea deal that did not result in certain
deportation. Rodriquez-Penton at 488. In Byrd, the
prosecutor was interested in negotiating a plea agreement, but Byrd’s counsel informed the prosecutor that
Byrd was unwilling to consider a plea and assured

App. 22
Byrd that he would be acquitted. 940 F.3d 248, 251 (6th
Cir. 2019). Byrd specifically asked his counsel about
the possibility of pleading guilty, to which counsel responded with assurances of acquittal due to the defense of abandonment. Id. at 253. The Court in Byrd
opined that “because there is no right to a plea offer,
where a petitioner alleges ineffective assistance of
counsel prevented plea negotiations, demonstrating
prejudice requires that he establish a reasonable probability that but for counsel’s errors, the petitioner
would have received a plea offer.” Id. at 257.
Here, Defendant has not asserted any facts indicating the State was willing to negotiate a plea deal,
and his assertion that counsel could have secured a favorable plea agreement is pure speculation. See Balsam v. United States, 2011 WL 13334386, at *6 (S.D.
Fla. 2011). In Abuchar v. United States, the defendant
claimed that he was prejudiced by his counsel’s failure
to pursue a plea agreement because a negotiated plea
to Count III in exchange for dismissal of Count I and
II would have allowed him to avoid his “automatic deportation” status, and if the government would not
have agreed to such a plea resolution, then he would
have gone to trial. 2014 WL 5810688, at *9 (S.D. Fla.
2014). The Magistrate Judge’s report and recommendation summarily denying the claim, which was approved in its entirety, reasoned:
Abuchar’s first prejudice argument assumes
that the Government would have agreed to
his suggested plea deal. In order to make this
argument, Abuchar must put forth evidence

App. 23
that the Government was interested in a plea
deal. Jewson, 2005 WL 1684209, at *16. Abuchar failed to provide any evidence that the
Government was interested in a plea deal and
thus did not meet his burden of proof on the
prejudice prong for this ineffective assistance
of counsel argument.
Id. at *9.
Additionally, the record demonstrates that the
State was not open to negotiating a lower sentence.
Specifically, Defendant’s counsel requested that the
Court impose another downward departure sentence.
Transcript of Proceeding, May 13, 2016, p. 10-11, attached hereto as Appendix K. The State argued that
the Court had already departed downward when Defendant was originally sentenced, and requested that
the Court not depart further. Id. at pp. 11-12. At resentencing, Defendant’s father expressed his hope that
Defendant’s charge would be reduced to Attempted
Child Abuse No Great Harm. Id. at p. 9. Counsel again
requested that the Court enter a downward departure
sentence. Id. at pp. 10-11. However, based on the
State’s argument at resentencing, it is clear it was not
open to negotiating a lower sentence. Id. at pp. 11-13.
For these reasons, Defendant can establish neither deficient performance nor prejudice and ground four will
be summarily denied.

App. 24
Ground Five
In ground five, Defendant asserts his counsel was
ineffective for failing to properly object to the imposition of sex offender probation at the trial level and failing to maintain the objection in his reply brief after
raising it for the first time at the appellate level. Defendant argues the claims for which he was initially
convicted were not enumerated offenses requiring sex
offender probation. Defendant contends that had his
counsel objected to the sex offender probation at sentencing, there is a reasonable probability this Court
would not have imposed the sex offender probation
conditions. In Senger, the Court of Appeal addressed
the trial court’s imposition of sex offender probation for
a non-enumerated offense:
We find that the present case is more analogous to Ackermann v. State, 962 So.2d 407,
408 (Fla. 1st DCA 2007), in which our sister
court held that a defendant may not be sentenced to drug offender probation unless he
has been convicted of a specifically enumerated drug offense or has specifically agreed to
such probation in a plea agreement. Admittedly, Senger did not have a plea agreement
with the State. However, in his open plea to
the court, Senger specifically agreed to be
bound by the special conditions of sex offender
probation as part of his effort to convince the
trial court to impose a downward departure
sentence. Having been successful in that

App. 25
endeavor, and due to the nature of the conviction, we believe it entirely appropriate that
the trial court imposed sex offender probation.
200 S.3d at 146.
Here, the State did not explicitly object to a downward departure at Defendant’s original sentencing
hearing, stating it would defer to the court as far as
length of sentence, but stressing that “certainly after
that he needs to be on sex offender probation for a
number of years . . . ” Transcript of Proceedings, January 7, 2015, p. 39, attached hereto as Appendix L. The
trial court ultimately imposed a downward departure
sentence followed by sex offender probation. App. L, pp.
4041. At the resentencing hearing, counsel advised the
Court that imposition of sex offender probation was
improper. App. K, pp. 4-5. The Court acknowledged the
fact that standard sex offender conditions did not apply to Defendant’s charge and chose to only impose certain conditions. Id. pp. 15-18.
The Court finds that counsel’s conduct surrounding the trial court’s imposition of sex offender probation was not deficient. Additionally, any error was
cured at resentencing when counsel objected to the imposition of sex offender probation. The Court did not
re-impose sex offender probation at resentencing. For
these reasons, ground five will be summarily denied.
Accordingly, it is:

App. 26
ORDERED AND ADJUDGED that:
Defendant’s Motion for Post-Conviction Relief is
DENIED.
Defendant has the right to appeal within 30 days
of the rendition of this order.
DONE AND ORDERED in Chambers, in St.
Johns County, St. Augustine, Florida, this 30th day of
March, 2020.
/s/ Howard M. Maltz
HOWARD M. MALTZ
Circuit Judge
Copies to:
Office of the State Attorney
William Mallory Kent, Esq.
kent@williamkent.com
Ryan Edward McFarland, Esq.
ryan@kent-mcfarland.com
Michael Baggott
188 Sandalwood Dr.
Statesboro, GA 30458

App. 27
APPENDIX C

